Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REASSIGNMENT OF MEDICARE
         BENEFITS




                    Daniel R. Levinson
                     Inspector General

                      October 2009
                     OEI-07-08-00180
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
I N T R O D        U C T     I O N
    E X E C U T I V E                         S U M M A R Y


                    OBJECTIVES
                    To determine the extent to which:
                     1. practitioners have reassignments of benefits,
                     2. practitioners indicate that their reassignments of benefits should
                         be active,
                     3. practitioners had Medicare expenditures through reassignments of
                         benefits that should not have been active, and
                     4. the Centers for Medicare & Medicaid Services (CMS) has
                         established safeguards with respect to reassignment of benefits.


                    BACKGROUND
                    Medicare regulations require that contractors distribute payments
                    directly to practitioners who render services, unless those practitioners’
                    benefits are reassigned to third parties. A reassignment of benefits is a
                    mechanism by which Medicare practitioners allow third parties to bill
                    and receive payment for services that they rendered.

                    Practitioners submit to Medicare contractors Form CMS-855I (855I) to
                    enroll in Medicare and Form CMS-855R (855R) to reassign benefits.
                    Contractors create records in the Provider Enrollment, Chain, and
                    Ownership System (PECOS) reflecting information in the 855I.
                    Contractors process 855Is and 855Rs using the safeguards established
                    in Chapter 10 of the “Medicare Program Integrity Manual.” Contractors
                    may employ additional safeguards, as needed.

                    We obtained the PECOS May 2008 Individual Global Extract File (the
                    May 2008 Extract), which contained records for all reassignments that
                    were established between January 1, 2003, and December 31, 2007. We
                    analyzed the Extract to determine the number of practitioners with
                    reassignments and the number of reassignments per practitioner. Our
                    sample included 497 practitioners with 1,723 reassignments. We also
                    used the 2007 Part B Medicare claims data from the National Claims
                    History file to match claims to practitioners and reassignments and
                    interviewed CMS Central Office staff and contractors regarding
                    procedures pertaining to reassignments and safeguards.


                    FINDINGS
                    CMS data indicate that 77 percent of practitioners have at least one
                    reassignment. The May 2008 Extract indicated that 77 percent of
                    practitioners had at least one reassignment.

 OEI-07-08-00180    REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                            i
E X E C U T I V E                 S U      M M A R Y


                   Practitioners indicated that 37 percent of reassignments should not
                   have been active. For 92 percent of reassignments that should not
                   have been active, the practitioners were once employed with the third
                   parties to which their reassignments were made, but had since
                   terminated their employment with them. For the remaining 8 percent
                   of reassignments, practitioners had no knowledge of the third parties to
                   which their benefits had been reassigned or had applied for positions
                   with the third parties but were never employed there.
                   Medicare paid a total of $140,488 through reassignments that should
                   not have been active. Medicare paid $140,488, in 2007, through
                   16 reassignments in our sample that should not have been active.
                   CMS contractors reported using safeguards to ensure correct
                   processing of reassignments, but several factors may limit their
                   effectiveness. CMS contractor staff reported that they use safeguards
                   for processing reassignments. Contractors also reported comparing
                   signatures on reassignment applications to signatures on file and
                   verifying the reassignments by telephone, mail, or site visits. However,
                   only 48 percent of PECOS addresses resulted in responses from the
                   practitioners, and 29 percent of practitioners indicated that they never
                   update, did not know how to update, or relied on others to update their
                   contact information with Medicare. Further, 48 percent of practitioners
                   were not aware that they were entitled to access the claims billed on
                   their behalf. System vulnerabilities also could lead to abuse of active
                   reassignments. Finally, because the Multiple Carrier System does not
                   populate PECOS with provider transaction access number deactivation
                   information, reassignments in PECOS remain active.


                   RECOMMENDATIONS
                   Most practitioners enrolled in Medicare have at least one reassignment.
                   However, practitioners indicated that 37 percent of their reassignments
                   should not have been active. Despite the high number of reassignments
                   that should not have been active, Medicare payments made through
                   these reassignments were low. Safeguards are in place to ensure
                   correct processing of reassignments, but several factors may limit their
                   effectiveness.

                   Subsequent to our analyses, CMS staff informed us of new policies that
                   might address the limitations we identified regarding providers’ failure
                   to update their contact information or terminate inactive reassignments
                   and regarding the deactivation of provider transaction access numbers.

 OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                        ii
E X E C U T I V E                 S U      M M A R Y


                   To reduce the number of reassignments that should not be active, we
                   recommend that CMS:

                   Implement Plans To Revalidate Practitioner Enrollment Information.
                   We encourage CMS to implement its plans to revalidate practitioners’
                   enrollment information every 5 years.

                   Educate Practitioners on the Need To Provide Current Information.
                   CMS could educate practitioners on the need to provide current
                   correspondence information and terminate inactive reassignments.

                   Implement Plans To Update PECOS From Other Data Sources. We
                   encourage CMS to follow through with plans to allow the Multiple
                   Carrier System to populate PECOS with information on practitioners
                   whose billing privileges have been deactivated.

                   Follow Up With the Practitioners for Whom Payments Were Made
                   Through Reassignments That Should Not Have Been Active. We will
                   forward information on these claims to CMS in a separate
                   memorandum.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments, CMS agreed with the first and second
                   recommendations, but it did not indicate specific agreement or
                   disagreement with the third and fourth recommendations. However,
                   CMS described actions it has taken or plans to take to address all four
                   recommendations.
                   In response to the first recommendation, CMS indicated that it
                   instructed Medicare carriers and Part A/B Medicare Administrative
                   Contractors to initiate and complete more than 10,000 revalidations. In
                   response to the second recommendation, CMS indicated it has taken
                   significant steps to help educate the public about its reporting
                   responsibilities including discussing reporting responsibilities and the
                   need to update enrollment information during CMS Open Door Forums,
                   participating in conference calls with regional offices and contractors to
                   discuss reporting responsibilities, mailing reporting responsibility
                   information to high-risk providers, posting reporting responsibility
                   information on the Medicare provider enrollment Web site, and sending
                   listserv announcements to practitioners about their reporting
                   responsibilities.



 OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                         iii
E X E C U T I V E                 S U      M M A R Y


                   In response to the third recommendation, CMS plans in October 2009 to
                   update PECOS with verified deactivation information contained in the
                   Multiple Carrier System. In response to the fourth recommendation,
                   CMS stated that once it receives the information from OIG, it will follow
                   up with third parties that may have been inappropriately paid. We did
                   not make changes to the report based on CMS’s comments.




 OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                        iv
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 7
                   CMS data indicate that 77 percent of practitioners have at least
                   one reassignment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   Practitioners indicated that 37 percent of reassignments should
                   not have been active . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   Medicare paid a total of $140,488 through reassignments that
                   should not have been active . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   CMS contractors reported using safeguards to ensure correct
                   processing of reassignments, but several factors may limit their
                   effectiveness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                   Agency Comments and Office of Inspector General Response . . . 12


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                   A: Original Sampling Frames and Active Reassignments . . . . . . 14

                   B: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 15

                   C: Nonresponse Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                   D: Practitioners With Reassignments by Specialty . . . . . . . . . . . 17

                   E: Reassignments That Should Not Have Been Active . . . . . . . . 19

                   F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
   I N T R O D U C T I O N


                  OBJECTIVES
                  To determine the extent to which:
                   1. practitioners have reassignments of benefits,
                   2. practitioners indicate that their reassignments of benefits should
                       be active,
                   3. practitioners had Medicare expenditures through reassignments of
                       benefits that should not have been active, and
                   4. the Centers for Medicare & Medicaid Services (CMS) has
                       established safeguards with respect to reassignment of benefits.


                  BACKGROUND
                  Medicare regulations require that contractors distribute payments
                  directly to the practitioners who render services, unless those
                  practitioners’ benefits are reassigned to third parties. 1 A reassignment
                  of benefits (hereinafter referred to as reassignment) is a mechanism by
                  which Medicare practitioners allow third parties to bill and receive
                  payment for services that they rendered. Approximately $28 billion was
                  paid through reassignments in 2007. Many practitioners routinely
                  reassign their Medicare benefits as part of their normal business
                  practices. For example, anesthesiologists might reassign their benefits
                  to several different hospitals where they render services in order for the
                  hospitals to bill and receive payment from Medicare Part B for the
                  services that the anesthesiologists performed. The hospitals would also
                  bill and receive payment from Medicare Part A for the hospital portion
                  of the service. In this example, anesthesiologists might have multiple
                  reassignments, one for each hospital where they render services.

                  According to 42 CFR § 424.80, third parties that may receive
                  reassignments include the practitioners’ employers or billing agents,
                  other Medicare-enrolled entities with which practitioners have
                  contractual arrangements, Government agencies or entities, or other
                  entities as established by court orders.
                  Processing Enrollments and Reassignments
                  Medicare contractors are responsible for enrolling practitioners and
                  processing payments; each contractor is responsible for a specific
                  geographic region. Under Medicare Contracting Reform,
                  responsibilities of contractors are transitioning to Medicare

                    1 Section 1842(b)(6) of the Social Security Act; 42 CFR § 424.73.




OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                          1
I N T R O D        U C T      I O N


                    Administrative Contractors. There were 10 contractors at the time of
                    our review in March 2009.

                    Enrollments. To enroll in Medicare, practitioners must submit
                    Form CMS-855I (855I) to Medicare contractors serving their respective
                    regions. Each 855I contains identifying information about the
                    practitioner, including medical specialty, billing address, practice
                    location, and any adverse legal actions. Using information from the
                    855I, contractors create records in the Provider Enrollment, Chain, and
                    Ownership System (PECOS) for each enrolled practitioner. 2
                    Reassignments. To reassign benefits, practitioners submit
                    Form CMS-855R (855R) to Medicare contractors with which the
                    practitioners are enrolled. The 855R contains information about both
                    the practitioners and the third parties to which practitioners reassign
                    benefits. The 855R requires the practitioners’ or delegated officials’
                    original signatures authorizing the reassignments. 3 To reassign
                    benefits, practitioners must first enroll in Medicare as individuals. The
                    third parties to which the benefits are reassigned must enroll in
                    Medicare as institutions or groups. Additionally, both the practitioners
                    and the third parties must enroll with the same contractor serving their
                    region. For example, practitioners enrolled through Contractor A may
                    not reassign their benefits to clinics enrolled through Contractor B. The
                    contractors process the 855Rs, adhering to required safeguards, and
                    create PECOS records reflecting the information in the 855Rs. The
                    855Rs are also used by both the practitioners and the third parties to
                    terminate reassignments. The 855R requires the practitioners’ or
                    delegated officials’ original signatures to terminate reassignments.

                    Billing through reassignments. PECOS is linked to the Multiple Carrier
                    System, which contractors use to pay Medicare claims, to create a
                    record for each reassignment. In the Multiple Carrier System, a
                    Provider Transaction Access Number (PTAN) is assigned to each
                    practitioner for each reassignment so that the third party receiving the
                    reassignment can bill on the practitioner’s behalf. In effect, there is one
                    PTAN for each reassignment. If practitioners have multiple


                      2 PECOS is the CMS system of records for enrollment and reassignments of Medicare

                    practitioners.
                      3 Delegated official means an individual who is given the authority by the practitioner to
                    report changes and updates to the practitioner’s enrollment record. The delegated official
                    must be an individual with an ownership or control interest (as defined in Section
                    1124(a)(3) of the Social Security Act) or be a W-2 managing employee of the practitioner.



 OEI-07-08-00180    REASSIGNMENT     OF   MEDICARE BENEFITS
                                                                                                                 2
I N T R O D        U C T      I O N


                    reassignments, they will have multiple PTANs. If no billing occurs for a
                    period of 12 consecutive months, the PTAN is deactivated and no
                    further billing can occur through that reassignment.
                    Planned CMS Improvements
                    After we completed data collection, CMS staff informed us of new
                    policies that would improve existing reassignment safeguards. These
                    improvements include periodically revalidating practitioner contact
                    information and implementing communication from the Multiple
                    Carrier System to PECOS.


                    METHODOLOGY
                    PECOS Individual Global Extract File
                    From CMS, we obtained the PECOS May 2008 Individual Global
                    Extract File (the May 2008 Extract), which CMS staff indicated to us
                    contained records for all reassignments that were established between
                    January 1, 2003, and December 31, 2007, and were still active on May
                    1, 2008. 4 We analyzed this information to determine the number of
                    practitioners with reassignments and the number of reassignments per
                    practitioner. Our sampling plan assigned practitioners to one of three
                    strata, depending on the number of reassignments in the May 2008
                    Extract—one or two reassignments, three or four reassignments, and
                    five or more reassignments. We initially sampled 166 practitioners in
                    each stratum for this study. The sampled practitioners had from 1 to
                    21 reassignments.

                    Prior to sample selection, CMS enrollment staff indicated to us that the
                    May 2008 Extract contained only active reassignments—that is,
                    reassignments for which no terminations have been submitted.
                    However, we discovered discrepancies between the data contained in
                    the May 2008 Extract and those in the PECOS database. When we
                    asked CMS staff to explain these discrepancies, they determined that
                    errors in the procedures that created the May 2008 Extract had caused
                    it to contain records of terminated reassignments and inaccurate
                    effective dates for reassignments. 5 Therefore, we initially assigned

                      4 We selected the May 2008 Extract to increase the likelihood that practitioners would

                    still be in practice at the time we attempted to contact them from September 2008 to
                    February 2009.
                      5 Further information on the errors is available in our report entitled “Inaccurate Data in
                    the Provider Enrollment, Chain, and Ownership System Individual Global Extract File,”
                    OEI-07-08-00181.



 OEI-07-08-00180    REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                               3
I N T R O D        U C T       I O N


                    some practitioners to the wrong stratum because of inaccuracies in the
                    May 2008 Extract. After discovering the discrepancies and inaccurate
                    effective dates, we examined PECOS data for every practitioner and
                    reassignment in our sample to identify the correct number of active
                    reassignments for each practitioner. This resulted in our sample having
                    194 practitioners with 1 or 2 reassignments (249 total reassignments),
                    152 practitioners with 3 or 4 reassignments (497 total reassignments),
                    and 151 practitioners with 5 or more reassignments (977 total
                    reassignments).

                    We excluded from our analyses all reassignments that had been
                    terminated as of May 1, 2008, and our reported study results reflect
                    these adjustments. One practitioner with more than five reassignments
                    was excluded because of an open Office of Inspector General (OIG)
                    investigation.

                    After we made these corrections, our sample included 497 practitioners
                    with 1,723 reassignments. Projections were made for both practitioners
                    and reassignments. See Appendix A for further details on the original
                    sample and adjustments. See Appendix B for point estimates and
                    confidence intervals.
                    Practitioner Data Collection
                    After selecting our sample, we mailed lists of the reassignments found
                    in the May 2008 Extract to the sampled practitioners. We asked these
                    practitioners whether each reassignment listed should have been active.
                    Our overall response rate from practitioners was 88 percent. 6 To
                    achieve the highest response rate possible, we used multiple
                    information sources to identify correct addresses for practitioners. We
                    first used the correspondence address in the May 2008 Extract. If the
                    U.S. Postal Service was unable to deliver a letter and it was returned to
                    us with “return to sender” or “not at this address” noted on it or we
                    received no response, we used the following sources to locate
                    practitioners’ addresses:

                         the pay-to address listed in the May 2008 Extract,




                        6 The response rates were: practitioners with one to two reassignments,
                    158 practitioners, or 93 percent; practitioners with three to four reassignments,
                    145 practitioners, or 86 percent; and practitioners with five or more reassignments,
                    136 practitioners, or 82 percent. Responses from these 439 practitioners represent
                    1,482 reassignments.



 OEI-07-08-00180    REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                           4
I N T R O D        U C T     I O N


                       the practitioner’s National Provider Identifier (NPI) mailing
                        address, and

                       the practitioner’s NPI practice location address.

                    We used additional resources to locate practitioners for whom we were
                    still unable to identify correct mailing addresses, which included:

                       searching networking Web sites and public records, such as
                        Google.com, LinkedIn.com, Facebook.com, State medical licensing
                        Web sites, telephone and cell phone directories, and county tax
                        information;

                       calling the practitioners;

                       examining the 2008 National Claims History file for recently paid
                        claims to identify practitioners’ most recent places of employment;

                       searching LexisNexis to identify other potential addresses; and
                       searching the current PECOS database to determine whether the
                        practitioners had updated their correspondence addresses.

                    Once we identified the correct mailing address for each practitioner, we
                    made at least four attempts to solicit a response by mail, with the
                    fourth attempt being a certified letter.

                    We then used the 2007 Part B Medicare claims data from the National
                    Claims History file to determine how much Medicare paid through the
                    sampled practitioners’ reassignments. We used practitioners’
                    identifying information (NPI and provider identification number) and
                    third parties’ tax identification numbers to identify Medicare Part B
                    claims paid through specific reassignments.
                    Interviews With CMS and Contractors
                    We interviewed CMS Central Office staff regarding procedures
                    pertaining to reassignments and required safeguards. We conducted
                    structured interviews with staff at all 10 contractors responsible for
                    processing reassignments to assess the established reassignment
                    safeguards.
                    Nonresponse Analysis
                    We received an 88-percent response rate from practitioners to the
                    survey. Therefore, we conducted a nonresponse analysis. We found no
                    statistical evidence of nonresponse in our key survey estimates.
                    Appendix C provides details on the nonresponse analysis.



 OEI-07-08-00180    REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                             5
I N T R O D        U C T     I O N


                    Limitations
                    We limited our analyses to 2007 Medicare Part B claims from the
                    National Claims History File and reassignment information in the
                    May 2008 Extract. Information regarding whether reassignments
                    should have been active was self-reported.
                    Quality Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-07-08-00180    REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                       6
   F I N D I N G S


         CMS data indicate that 77 percent of                    Data in the May 2008 Extract
                                                                 indicate that 517,936 practitioners
practitioners have at least one reassignment
                                                                 had at least one reassignment (see
                          Table 1). The May 2008 Extract data also indicate that these
                          practitioners had a total of 833,016 reassignments.
                          As Table 1 shows, nearly all certified registered nurse anesthetists had
                          at least one reassignment, while physician assistants rarely had
                          reassignments. The majority of practitioners with reassignments were
                          physicians. Appendix D provides the percentages of practitioner
                          specialties with reassignments. As Appendix D shows, emergency
                          department physicians had the highest rate of reassignments for any
                          physician specialty.
    Table 1: Types of Medicare-Enrolled Practitioners With Reassignments

                                                                                                                   Percent of Enrolled
                                                    Total Enrolled        Total Practitioners with
        Practitioner Type                                                                                           Practitioners with
                                                     Practitioners                Reassignments
                                                                                                                      Reassignments

        Certified Registered Nurse
                                                             24,555                            23,294                                  94.9
        Anesthetist

        Nurse Midwife                                          3,113                            2,820                                  90.6
        Nurse Practitioner                                   45,140                            40,333                                  89.4

        Physical Therapist                                   34,354                            30,329                                  88.3

        Occupational Therapist                                 6,411                            5,529                                  86.2

        Doctor of Medicine/Doctor of
                                                            454,975                          372,636                                   81.9
        Osteopathy

        Audiologist                                            3,470                            2,779                                  80.1
        Dietician                                              6,936                            5,440                                  78.4

        Clinical Nurse Specialist                              2,474                            1,683                                  68.0
        Licensed Clinical Social Worker                      34,682                            20,228                                  58.3

        Clinical Psychologist                                21,353                            11,384                                  53.3
        Other                                                  1,391                              741                                  53.3

        Physician Assistant                                  35,712                               740                                   2.1
         Total                                              674,566                          517,936                                   76.8

      Source: Office of Inspector General (OIG) analysis of Individual Global Extract File Enrollment and Reassignment Tables, 2009.




OEI-07-08-00180           REASSIGNMENT      OF   MEDICARE BENEFITS
                                                                                                                                              7
 F   I N D I N G        S


                                                                Overall, 37 percent of
           Practitioners indicated that 37 percent of
                                                                reassignments in the May 2008
        reassignments should not have been active
                                                                Extract should not have been
                       active. Further, 39 percent of practitioners had at least one
                       reassignment that should not have been active. For 92 percent of
                       reassignments that should not have been active, the practitioners were
                       once employed with the third parties to which their reassignments were
                       made, but had since terminated their employment with them. For the
                       remaining 8 percent of reassignments that should not have been active,
                       practitioners had no knowledge of third parties to which their benefits
                       had been reassigned or indicated that they had applied for positions
                       with the third parties but were never employed there. As one of the
                       practitioners in our sample stated, “Years ago, I was considering
                       [working for the third party]. I don’t recall any contract [being] signed,
                       much less [completing or signing] any Medicare forms. I never provided
                       any services on their behalf, either.”
                       Thirty-five percent of practitioners who indicated they had at least one
                       reassignment that should not have been active believed that the
                       reassignment(s) automatically terminated when their employment did.
                       When we asked practitioners whether they knew they could terminate
                       reassignments, 55 percent responded that they were not aware that
                       they could do so. 7 Point estimates with confidence intervals for selected
                       statistics are contained in Appendix B.

                       Appendix E compares reassignments that should not have been active
                       among practitioners with one or two reassignments to those with three
                       or four reassignments and five or more reassignments.



       Medicare paid a total of $140,488 through              Third parties collected payments
                                                              from Medicare through
reassignments that should not have been active
                                                              reassignments that should not
                       have been active for only 1 percent of practitioners. 8 From our sample,
                       we identified 12 practitioners who had a total of 16 reassignments
                       through which Medicare made payments (1) after the dates the


                          7 After completing our survey, 12 practitioners requested us to provide them with copies
                       of the CMS-855R or asked us how to find the CMS-855R so they could terminate their
                       inactive reassignments.
                          8 We counted payments in error only for services that were provided more than 1 month
                       after the dates the practitioners indicated the reassignments should have been terminated.



     OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                                     8
    F   I N D I N G        S


                          practitioners indicated their employment with the third parties ended
                          or (2) to third parties of which practitioners were not aware. 9 While
                          Medicare allowed a total of $35.3 million in payments through the
                          sampled reassignments, only $140,488 in payments were made through
                          reassignments that should not have been active. The amount paid
                          through each of these 16 reassignments ranged from $7 to $66,901.

                          In one example, a practitioner had a total of 21 reassignments. Of
                          these, only three should have been active. For the remaining
                          18 reassignments, four were for third parties with which the
                          practitioner had terminated her employment in 2004. These third
                          parties continued to collect Medicare payments on the practitioner’s
                          behalf. Medicare payments to these third parties totaled more than
                          $7,800 in 2007, which was 3 years after the practitioner indicated she
                          terminated her employment with them. All four of these entities shared
                          the same address. 10



 CMS contractors reported using safeguards to                  CMS contractor staff reported using
                                                               safeguards to ensure that both
  ensure correct processing of reassignments,
                                                               practitioners and third parties are
but several factors may limit their effectiveness
                                                               enrolled in Medicare, the signatures on
                          the applications are those of the practitioners or delegated officials, the
                          signatures are original (not photocopied or stamped), and the third parties
                          listed are eligible to receive reassigned benefits. 11
                          Although they are not required to do so, 7 of 10 Medicare contractors
                          reported using additional safeguards, such as comparing the signatures
                          on reassignment applications to signatures on file or contacting the
                          practitioners or the third parties to verify the reassignments by
                          telephone, mail, or site visits. Contractors that used these additional
                          safeguards indicated that they target these efforts to areas of high




                            9 When practitioners indicated they had no knowledge of the third parties, all payments
                          made through those reassignments were determined to be made in error regardless of date.
                            10 We found that 25 separate legal entities shared this same address and suite number.
                            11 The safeguards contractors reported using are those in CMS’s “Medicare Program
                          Integrity Manual,” Pub. No. 100-08, ch. 10.



        OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                                      9
F   I N D I N G        S


                      suspected fraud, practitioners with multiple reassignments, and/or
                      855Rs they find suspicious or questionable. 12
                      While contractors have implemented safeguards to prevent payments
                      made through reassignments that should not have been active, the
                      safeguards have limited effectiveness because (1) many practitioners
                      fail to update their contact information with CMS, (2) many
                      practitioners fail to review claims that were billed on their behalf, and
                      (3) PTANs are not automatically deactivated when reassignments are
                      deactivated.
                      More than half of practitioners failed to update their information with CMS
                      Many practitioners failed to provide CMS updated contact information,
                      which could create challenges in contacting practitioners to verify
                      reassignments. Only 48 percent of PECOS addresses resulted in
                      responses from the practitioners. We identified correct mailing
                      addresses for nearly all of the remaining practitioners using sources
                      other than the May 2008 Extract. We obtained addresses from the NPI
                      registry for 32 percent of practitioners. We obtained addresses for
                      19 percent of practitioners through multiple Internet sources, such as
                      Google.com, State licensing board Web sites, LexisNexis, and social
                      networking sites. We were unable to locate addresses for 2 percent of
                      practitioners. 13
                      Additionally, 29 percent of practitioners indicated that they never
                      update, did not know how to update, or relied on others to update their
                      contact information with Medicare. 14 One practitioner explained, “I
                      personally do not contact Medicare. I have always presumed that the
                      credentialing and billing departments take care of this. . . .” All of the
                      practitioners in our sample who had payments made through
                      reassignments that should not have been active failed to either



                         12 In one example demonstrating the efforts contractors undertake to prevent

                      inappropriate reassignments, a contractor rejected a reassignment application because it
                      lacked required information. Subsequent to the rejection, the third party provided the
                      missing information, resubmitting the original application. However, the contractor noted
                      that the date on the application had been erased and rewritten. The contractor spoke with
                      the practitioner, who explained that he decided not to join the group, leading the contractor
                      to believe that the third party submitted the reassignment application without the
                      practitioner’s knowledge. The contractor referred the group for further investigation.
                        13 Percentages exceed 100 percent because of rounding.
                        14 Practitioners indicated that they relied on administrative staff and credentialing or
                      billing departments to update their information or prompt them to do so.



    OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                                   10
F   I N D I N G        S


                      terminate their reassignments or update their contact information with
                      CMS.

                      Nearly half of practitioners were unaware that they could review
                      claims billed on their behalf

                      Practitioners, upon request to CMS, have unrestricted access to all
                      claims billed on their behalf by the third parties to which their benefits
                      have been reassigned. 15 Theoretically, practitioners would see potential
                      inappropriate claims that third parties billed to Medicare when
                      reviewing the claims billed on their behalf. However, two factors
                      impede the effectiveness of this safeguard. First, 48 percent of
                      practitioners reported that they were not even aware that they were
                      entitled to access the claims billed on their behalf. Second, if
                      practitioners are not aware that third parties are billing Medicare on
                      their behalf, they have no reason to request access to claims that the
                      third parties are billing.
                      PTAN deactivation does not currently update PECOS and terminate the
                      reassignment
                      Contractors use the Multiple Carrier System to pay Medicare claims. If
                      after 12 months a PTAN is not used, it is deactivated in the system.16
                      Deactivation of the PTAN prevents further billing through a given
                      reassignment. However, as long as third parties continue to bill on
                      practitioners’ behalf, the deactivation date is not triggered.
                      Additionally, deactivation of a PTAN has no effect on the reassignment
                      record in PECOS because the Multiple Carrier System did not populate
                      PECOS with deactivation information at the time of this study.




                        15 42 CFR § 424.80(d)(2). Although the regulation requires practitioners to have

                      unrestricted access, it does not specify how this access should be given.
                        16 CMS, “Medicare Program Integrity Manual,” Pub. No. 100-08, ch. 10, § 13.1.




    OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                           11
   R E C O M M E N D A T I O N S



                  Most practitioners enrolled in Medicare have at least one reassignment.
                  However, practitioners indicated that 37 percent of their reassignments
                  should not have been active. Despite the high number of reassignments
                  that should not have been active, Medicare payments made through
                  these reassignments were low. Safeguards are in place to ensure
                  correct processing of reassignments, but several factors may limit their
                  effectiveness.

                  Subsequent to our analyses, CMS staff informed us of new policies that
                  might address the limitations that we identified. These include
                  periodically revalidating practitioner contact information and
                  implementing communication from the Multiple Carrier System to
                  PECOS. The implementation of these new policies would address the
                  limitations we identified regarding providers’ failure to update their
                  contact information or terminate inactive reassignments and regarding
                  the deactivation of PTANs.

                  To reduce the number of reassignments that should not be active, we
                  recommend that CMS:

                  Implement Plans To Revalidate Practitioner Enrollment Information.
                  We encourage CMS to implement its plans to revalidate practitioners’
                  enrollment information every 5 years.

                  Educate Practitioners on the Need To Provide Current Information.
                  CMS could educate practitioners on the need to provide current
                  correspondence information and terminate inactive reassignments.
                  Implement Plans To Update PECOS From Other Data Sources. We
                  encourage CMS to follow through with plans to allow the Multiple
                  Carrier System to populate PECOS with information on practitioners
                  whose billing privileges have been deactivated.

                  Follow Up With the Practitioners for Whom Payments Were Made
                  Through Reassignments That Should Not Have Been Active. We will
                  forward information on these claims to CMS in a separate
                  memorandum.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its written comments, CMS agreed with the first and second
                  recommendations, but it did not indicate specific agreement or

OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                      12
R   E C O        M M E N D A T               I O N       S


                      disagreement with the third and fourth recommendations. However,
                      CMS described actions it has taken or plans to take to address all four
                      recommendations.

                      CMS indicated that it has taken a number of steps to strengthen the
                      reassignment process, such as implementing a systematic process to
                      deactivate approximately 2 million infrequently used Medicare billing
                      numbers. CMS indicated that it has also provided practitioners online
                      access to enroll, change, or view existing enrollments.

                      In response to the first recommendation, CMS indicated that it
                      instructed Medicare carriers and Part A/B Medicare Administrative
                      Contractors, through program instructions, to initiate and complete
                      more than 10,000 revalidations.

                      In response to the second recommendation, CMS indicated it has taken
                      significant steps to help educate the public about its reporting
                      responsibilities including discussing reporting responsibilities and the
                      need to update enrollment information during CMS Open Door Forums,
                      participating in conference calls with regional offices and contractors to
                      discuss reporting responsibilities, mailing reporting responsibility
                      information to high-risk providers, posting reporting responsibility
                      information on the Medicare provider enrollment Web site, and sending
                      listserv announcements to practitioners about their reporting
                      responsibilities.

                      In response to the third recommendation, CMS plans in October 2009 to
                      update PECOS with verified deactivation information contained in the
                      Multiple Carrier System. The synchronization process will ensure
                      PECOS maintains current information on practitioners.

                      In response to the fourth recommendation, CMS stated that once it
                      receives the information from OIG, it will follow up with third parties
                      that may have been inappropriately paid.

                      We did not make changes to the report based on CMS’s comments. The
                      full text of CMS’s comments can be found in Appendix F.




    OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                            13
                         A P P E N D I X                                ~       A

                                                  Table A-1: Original Sampling Frames

                                                                                                                               Original Sample Design
                                                           Practitioners in               Reassignments in
  Stratum                Stratum Definition
                                                              Population*                      Population*              Practitioners in      Reassignments in
                                                                                                                                 Sample                Sample

                         Practitioners with one
  1                      or two active                                448,824                         559,308                         166                      202
                         reassignments


                         Practitioners with
  2                      three or four active                          54,345                         178,208                         166                      543
                         reassignments



                         Practitioners with five
  3                      or more active                                14,767                          95,500                         166                    1,076
                         reassignments



   Total                                                              517,936                         833,016                         498                    1,821

*The population figures are based on data in the Provider Enrollment, Chain, and Ownership System May 2008 Extract. As described in the "Methodology" section, the May
2008 Extract is known to contain reassignments that should not be active. However, no other data source is available to provide more accuarate population figures.

Source: Office of Inspector General (OIG) analysis of May 2008 Individual Global Extract File Enrollment and Reassignment Tables, 2009.




                                                     Table A-2: Active Reassignments Correctly Identified


                         Practitioners With            Practitioners With               Practitioners With
                                                                                                                        Design Sample         Reassignments in
  Stratum                One or Two Active           Three or Four Active              Five or More Active
                                                                                                                                 Size                  Sample
                           Reassignments                 Reassignments                     Reassignments


  1                                        166                               0                               0                        166                      249

  2                                         22                            144                                0                        166                      497

  3                                           6                              8                            152                         166                      977

   Adjusted
                                           194                            152                             152                         498                    1,723
   Sample Size

Source: OIG analysis of May 2008 Individual Global Extract File Enrollment and Reassignment Tables and Provider Enrollment, Chain, and Ownership System data, 2009.




                    OEI-07-08-00180               REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                                                                        14
                            A P P E N D I X                                ~        B

                                                    Table B-1: Point Estimates and Confidence Intervals
                                                                                                                                                  95-Percent
                                                                                                             Sample
Description                                                                                                                 Point Estimate        Confidence
                                                                                                             Size (n)
                                                                                                                                                     Interval

                                                                                                                                             $21,056,195,180–
Medicare expenditures through reassignments                                                                          497   $27,828,102,201
                                                                                                                                              $34,600,009,222

Percentage of reassignments prac titioners indicated should not have been active                               1,482                  36.5         31.4–41.6
Percentage of practitioners with reas signments that should not have been active                                     439              38.8         32.5–45.5

Percentage of reassignments to third parties that should not have been active for which the
                                                                                                                     682              91.7         87.2–96.2
practitioner worked prev iously

Percentage of reassignments to third parties that should not have been active for which the
                                                                                                                     682               8.3           3.8–12.8
practitioner never worked

Percentage of practitioners believing that reas signments automatic ally terminated with end
                                                                                                                     267              35.1         25.2–44.9
of employment

Percentage of practitioners unaware they could terminate a reassignment                                              439              55.2         48.2–62.0

Percentage of reassignments that should not have been active (prac titioners
                                                                                                                     233              33.1          26.2–40.1
with one or two reassignments)

Percentage of reassignments that should not have been active (prac titioners
                                                                                                                     428              42.1          36.2–48.0
with three or four reassignments)

Percentage of reassignments that should not have been active (prac titioners
                                                                                                                     821              50.0          43.6–56.5
with five or more reassignments)

Percentage of practitioners with reas signments that should not have been active
                                                                                                                     182              34.7          27.3–42.0
(practitioners with one or two reassignments)

Percentage of practitioners with reas signments that should not have been active
                                                                                                                     132              70.4          62.5–78.3
(practitioners with three or four reassignments )

Percentage of practitioners with reas signments that should not have been active
                                                                                                                     125              79.2          72.1–86.3
(practitioners with five or more reassignments)

Percentage of practitioners with payments for reass ignments that should not have been
                                                                                                                     439               1.0              0.2–2.9
active

Percentage of Provider Enrollment, Chain, and Onwers hip System (PECOS)
                                                                                                                     497              48.1         41.5–54.7
corres pondence addresses that were c orrect

Percentage of practitioners with correct National Provider Identifier contact information and
                                                                                                                     497              31.8         26.0–38.3
incorrect PECOS contact information

Percentage of practitioners with correct other contact information and incorrect PECOS and
                                                                                                                     497              18.5         14.0–24.0
NPI contact information

Percentage of practitioners we could not locate                                                                      497               1.7              0.4–4.5
Percentage of practitioners who never updated Medicare on contact information                                        439              29.0         23.1–35.7
Percentage of practitioners unaware they had access to claims billed on their behalf                                 439              48.1         41.3–55.1
Source: Office of Inspector General analysis of survey responses and 2007 National Claims History file data, 2009.




                        OEI-07-08-00180             REASSIGNMENT    OF   MEDICARE BENEFITS
                                                                                                                                                   15
   A P P E N D I X                      ~      C

                  Nonresponse Analysis
                  We analyzed how nonresponse to our survey may have affected our
                  survey estimates. We examined potential nonresponse bias effects on
                  key survey questions. Our nonresponse analysis provided no statistical
                  evidence that our survey results were biased because of nonresponse.

                  Our basic approach was to impute answers for nonrespondents and
                  determine whether the survey estimate calculated with the imputed
                  values differed significantly from the survey estimate based solely on
                  the respondents’ answers. If no statistical difference was found between
                  the two estimates, we considered our survey estimates to be unaffected
                  by potential nonresponse bias.

                  Variables available for both respondent and nonrespondent
                  practitioners were the number of allowed claims for 2007, the amount of
                  allowed claims for 2007, the number of active reassignments indicated
                  in PECOS, and the number of years since graduating from their medical
                  programs. We determined whether respondents and nonrespondents
                  differed statistically at the 95-percent confidence level on these
                  variables. We found only one difference for practitioners with five or
                  more reassignments: nonresponding practitioners graduated more
                  recently (on average 14 years ago) than responding practitioners (on
                  average 17 years ago).
                  Because practitioners with five or more reassignments who graduated
                  more recently were now underrepresented in our sample because of
                  nonresponse, we investigated whether this might bias our survey
                  results. To do this, we first classified respondents into two categories
                  corresponding to 14 or 17 years since graduation. Then we randomly
                  assigned respondents’ values to missing nonrespondents’ values within
                  the same graduation year categories. Finally, we conducted statistical
                  tests of significance at the 95-percent confidence level to determine
                  whether the estimates based on both respondents’ answers and
                  nonrespondents’ imputed values differed from the estimates based only
                  on respondents’ answers.

                  Based on this analysis, we found no statistical evidence that our survey
                  results were biased because of practitioner nonresponse.




OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                      16
A    P      P E N D            I X     ~           D
         A P P E N D I X                              ~      D


                               Table D-1: Practitioners With Reassignments by Specialty
                               Comparisons should not be made between Table 1 and Table D-1.
                               Practitioners may have multiple specialties; thus, the information will
                               not match between the tables.


                                                                                          Percentage of Enrolled
                                                        Enrolled       Providers With
      Physician Specialty                                                                        Providers With
                                                       Providers       Reassignments
                                                                                                 Reassignments

    Emergenc y Medicine                                     35,993               34,341                        95.4
    Interventional Radiology                                 1,493                1,399                        93.7
    Radiation Oncology                                       3,259                3,046                        93.5
    Critic al Care                                           4,435                4,085                        92.1
    Diagnostic Radiology                                    29,701               27,284                        91.9
    Cardiac Surgery                                          1,803                1,654                        91.7
    Nuclear Medic ine                                        1,049                  954                        90.9
    Anesthesiology                                          26,913               24,385                        90.6
    Interventional Pain Management                           3,957                3,549                        89.7
    Hematology/Oncology                                      5,780                5,162                        89.3
    Pediatrics                                              25,470               22,706                        89.1
    Surgery Oncology                                          711                  632                         88.9
    Pathology                                                7,667                6,805                        88.8
    Cardiology                                              18,422               16,326                        88.6
    Family Practice                                         58,364               51,687                        88.6
    Nephrology                                               5,056                4,453                        88.1
    Gynecological/Oncology                                    796                  701                         88.1
    Hematology                                                968                  852                         88.0
    Peripheral Vascular Medicine                              262                  228                         87.0
    Medical Onc ology                                        1,920                1,661                        86.5
    Orthopedic Surgery                                      14,846               12,817                        86.3
    Pulmonary Disease                                        6,835                5,877                        86.0
    Neurosurgery                                             3,400                2,923                        86.0
    Vascular Surgery                                         2,721                2,339                        86.0
    Internal Medicine                                       84,207               72,145                        85.7
    Other                                                    1,595                1,363                        85.5
    Obstetrics/Gynecology                                   21,967               18,727                        85.3
    Geriatric Medicine                                       2,925                2,487                        85.0
    Thorac ic Surgery                                        2,650                2,245                        84.7
    Hand Surgery                                             1,228                1,040                        84.7
    Urology                                                  5,934                5,011                        84.4
                                                                                               continued on next page




    OEI-07-08-00180            REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                                                        17
A    P    P E N D             I X          ~         D


                                Table D-1: Practitioners With Reassignments by Specialty (continued)

                                                                                                      Percentage of Enrolled
                                                          Enrolled           Providers With
       Physician Specialty                                                                                   Providers With
                                                         Providers           Reassignments
                                                                                                             Reassignments

    Infectious Medicine                                        3,666                        3,092                         84.3
    Neurology                                                  9,023                        7,610                         84.3
    Gastroenterology                                           7,405                        6,231                         84.1
    Colorectal Surgery                                            827                         690                         83.4
    Osteopathic Manipulative Treatment                         1,366                        1,139                         83.4
    Physical Medicine and Rehabilitation                       5,767                        4,806                         83.3
    General Surgery                                           17,241                       14,349                         83.2
    Ophthalmology                                             10,497                        8,706                         82.9
    Endocrinology                                              3,586                        2,928                         81.7
    Otolaryngology                                             5,461                        4,455                         81.6
    Preventative Medicine                                        789                          641                         81.2
    Allergy/Immunology                                         2,221                        1,803                         81.2
    Rheumatology                                               2,674                        2,159                         80.7
    Dermatology                                                6,174                        4,940                         80.0
    Ps ychiatry                                               22,880                       18,053                         78.9
    Addiction Medicine                                           408                          305                         74.8
    Maxillofacial Surgery                                      1,029                          761                         74.0
    Optometry                                                 19,055                       14,036                         73.7
    Plastics                                                   3,505                        2,443                         69.7
    General Practice                                           8,739                        5,981                         68.4
    Podiatry                                                   9,109                        6,223                         68.3
    Neuropsychiatry                                              196                          133                         67.9
    Oral Surgery                                               3,014                        1,965                         65.2
    Chiropractic                                              32,276                       17,263                         53.5
     Total                                                   559,235                     469,596
    Source: Office of Inspector General analysis of Provider Enroll ment, Chai n, and Ownership System data, 2009.




    OEI-07-08-00180             REASSIGNMENT    OF   MEDICARE BENEFITS
                                                                                                                                 18
   A P P E N D I X                         ~       E

                    Reassignments That Should Not Have Been Active
                    Although practitioners with one or two reassignments were less likely to
                    have reassignments that should not have been active than practitioners
                    with more than two reassignments, they had the greatest number of
                    reassignments that should not have been active overall. Among
                    practitioners with three or four reassignments, the proportion of
                    practitioners with at least one reassignment that should not have been
                    active was 35 percentage points higher than that of practitioners with
                    one or two reassignments. Among practitioners with five or more
                    reassignments, the proportion of practitioners with at least
                    one reassignment that should not have been active was 45 percentage
                    points higher than that of those with one or two reassignments (see
                    Table E-1). Statistical significance is shown in Table E-2.
                    Table E-1: Comparisons of Percentages of Reassignments That Should Not
                    Have Been Active


                                                Percentage of Reassignments             Percentage of Practitioners With One
                    Number of
                                                  That Should Not Have Been             or More Reassignments That Should
                    reassignments
                                                                      Active                           Not Have Been Active


                    One or two
                                                                              33.1                                              34.7
                    reassignments

                    Three or four
                                                                              42.1                                              70.4
                    reassignments

                    Five or more
                                                                              50.0                                              79.2
                    reassignments

                     Total                                                    36.5                                              38.8
                  Source: Office of Inspector General (OIG) analysis of survey responses and claims data, 2009.


                    Table E-2: Statistical Significance Between Strata

                                                              Percentage of Practitioners With               95-Percent
                    Number of Reassignments                  One or More Reassignments That                  Confidence           P-Value
                                                                 Should Not Have Been Active                    Interval


                    One or two reassignments                                                   34.7                    -                 -

                    Three or four reassignments                                                70.4                    -                 -

                    Difference                                                                 35.7           24.9—46.5           < 0.0001

                    One or two reassignments                                                   34.7                    -                 -

                    Five or more reassignments                                                 79.2                    -                 -

                    Difference                                                                 44.5           34.3—54.8           < 0.0001

                  Source: OIG analysis of survey responses, 2009.

OEI-07-08-00180     REASSIGNMENT    OF   MEDICARE BENEFITS
                                                                                                                           19
    A P PEN D                          x            F

                       Agency Comments



             DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                                     Administrator
                                                                                     Washlngton,DC 20201




          DATE:           SEP   lilt   2JJIl9j
          TO:            Daniel R. Levinson
                         Inspector General

          FROM:          Charlene Frizzera /S/
                         Acting Administrator

          SUBJECT:       Office of Inspector Geneml (OlG) Draft Report: "Reassignment of Medicare
                         Benefits" (OEI-07-08-00L80)


          Thank you for the opportunity to review and respond to the above referenced GIG Draft Report.
          The Centers for Medicare & Medicaid Services (CMS) appreciates the OIG's efforts in
          reviewing the Medicare reassignment process.

          The cMS has already taken a number of steps to strengthen the reassignment process.
          Specifically, after the publication of"Medicare Program: Requirements for Providers and
          Suppliers to Establish and Maintain Medicare Enrollment (CMS-0002-F)'' in the Pederql
          Register On April 21, 2006, CMS implemented a systematic. process to deactivate infrequently
          used Medicare billing numbers (i.e., a billing numhernot used in more than 12 consecutive
          months) for physicians, non-physician practitioners, and other suppIlers. Since implementIng
          this systematic process, we have deactivated approximately 2 million hilling numbers.

          In addition, CMSimplemented an internet-based provider enrollment system known as, the
          Provider Enrollment, Chain and Ownership System (PECOS), an electronic version of the
          Medicare enroJIment application process, earlier this year. The PECOS system allows
          physicians, non-physician practitioners,and other providers and suppliers (except for suppliers
          ofdurable medical equipment, prosthetics, orthotics and supplies) to enroll, change, or view an
          existing enrollment record at any time, By allowing physicians and non-physician practitioners
          ready access to their Medicare emolhnent record, we believe that physicians and non-physician
          practitioners will review and, as appropriate, update their current reassignments with the
          Medicare program more routinely.

          OIG Recommendation

          Implement plans to revalidate practitioner enrollment information.




OEI·07·08·00180        REASSIGNMENT OF MEDICARE BENEFITS
                                                                                                                            20
A   P   P E N D       I X     ~           F




    OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                              21
A   P   P E N D       I X     ~           F




    OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                              22
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office.

                  Brian Whitley served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Kansas City regional
                  office who contributed to the report include Megan Buck and
                  Michala Walker; central office staff who contributed include Kevin
                  Farber and Kevin Manley.




OEI-07-08-00180   REASSIGNMENT   OF   MEDICARE BENEFITS
                                                                                       23
